NO. 20-_____

In the
Supreme Court of the United States
SUPERINTENDENT HOUTZDALE SCI AND THE
ATTORNEY GENERAL PENNSYLVANIA,

Petitioners,
v.
AARON EDMONDS TYSON,

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI

MICHAEL MANCUSO

FIRST ASSISTANT DISTRICT ATTORNEY
COUNSEL OF RECORD

ANDREW KROECKEL

ASSISTANT DISTRICT ATTORNEY

701 MAIN STREET, SUITE 200
STROUDSBURG, PA 18360
(570) 517-3962
MMANCUSO@MONROECOUNTYPA.GOV

COUNSEL FOR PETITIONERS

DECEMBER 17, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
QUESTIONS PRESENTED
Under Pennsylvania law it is well-settled that to
be found guilty of First Degree Murder as an accomplice, a defendant must have the specific intent to kill
and to aid, attempt to aid, or agree to the aid the
principal in the commission of the crime charged. The
trial court’s jury instructions tracked Pennsylvania
accomplice liability law and informed the jury of the
required elements of the offense, and in no way relieved
the burden to prove each element of the crime charge
beyond a reasonable doubt. The Third Circuit Court of
Appeals reversed the Pennsylvania appellate courts and
U.S. District Court, laboring to find a due process violation by characterizing the jury instructions as ambiguous and leaping to conclude that counsel committed
error, which were reasonably likely to cause the jury
to misapply the law and relax the burden of proof.
1. Whether the review required under AEDPA
§ 2254 and Cullen v. Pinholster, 563 U.S. 170 (2011) is
violated by reliance upon a “some ambiguity” standard
utilized by the Court of Appeals to find a due process
violation without affording the required benefit of
the doubt to both defense counsel and the trial court?
2. Does the Court of Appeals decision granting
habeas relief on the basis of alleged erroneous jury
instructions in a state accomplice murder trial err by
failing to apply this court’s own precedent in Waddington v. Sarasaud, 129 S.Ct. 823 (2009)?
3. By ignoring whole sections of the trial court’s
charge to the jury with respect to accomplice liability
and failing to view it in the context of the trial record
did the Court of Appeals err in concluding that there
exists a substantial and not just a conceivable likelihood
of a different result?

ii
PARTIES TO THE PROCEEDINGS
Petitioners
●

Superintendent of the State Correctional
Institute Houtzdale, and

●

The Pennsylvania Attorney General through
the Office of District Attorney Monroe County
Pennsylvania.

Respondent
●

Aaron Edmonds Tyson

iii
LIST OF PROCEEDINGS
United States Court of Appeals for the Third Circuit
No. 19-1391
Aaron Edmonds Tyson, Appellant,
v. Superintendent Houtzdale SCI;
Attorney General Pennsylvania
Date of Final Opinion: September 24, 2020
_________________
United States District Court for the Middle District
of Pennsylvania
Civil No. 3:13-cv-2609
Aaron Edmonds Tyson, Petitioner,
v. Barry Smith, et al., Respondents
Date of Opinion: February 6, 2019
_________________
Superior Court of Pennsylvania
No. 730 EDA 2007
Commonwealth of Pennsylvania, Appellee,
v. Aaron Tyson, Appellant
Date of Opinion: January 11, 2008

iv
_________________
Court of Common Pleas of Monroe County
No. 817 Criminal 2003
Commonwealth of Pennsylvania, v.
Aaron Tyson, Defendant
Date of Verdict: May 9, 2006
Date of Sentencing: July 17, 2006

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDINGS ......................... ii
LIST OF PROCEEDINGS ......................................... iii
TABLE OF AUTHORITIES ..................................... vii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL PROVISIONS INVOLVED...... 2
INTRODUCTION ....................................................... 2
STATEMENT OF THE CASE .................................... 4
A. The Murders ..................................................... 4
B. The Trial ........................................................... 6
C. The Jury Instructions ...................................... 9
D. Appeals in the State Courts........................... 13
E. Federal Habeas Review ................................. 17
F. The Court of Appeals Opinion ....................... 19
REASONS FOR GRANTING THE PETITION ....... 27
CONCLUSION.......................................................... 31

vi
TABLE OF CONTENTS – Continued
Page
APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Third Circuit (September 24, 2020) ............ 1a
Memorandum Opinion of the United States
District Court for the Middle District of
Pennsylvania (February 6, 2019)..................... 31a
Memorandum Opinion of the Superior Court of
Pennsylvania (January 11, 2008) .................... 73a
Opinion of the Court of Common Pleas of Monroe
County (May 9, 2006) ...................................... 90a
OTHER DOCUMENTS
Trial Transcript Volume IV—Relevant Excerpts
(May 8, 2006) .................................................. 157a
Jury Instruction Transcript—Relevant Excerpts
(May 9, 2006) .................................................. 216a

vii
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Commonwealth v. Daniels,
963 A.2d 409 (Pa. 2009) .................. 17, 27, 28, 29

Commonwealth v. Maisonet,
31 A.3d 689 (Pa. 2011) ...................................... 17

Commonwealth v. Schoff,
911 A.2d 147 (Pa. Super. 2006)......................... 13

Commonwealth v. Thompson,
543 Pa. 634, 674 A.2d 217 (1996) ............... 28, 29

Commonwealth v. Tyson,
2013 WL11283845 (Pa. Super 2013) .................. 16

Commonwealth v. Tyson,
947 A.2d 834 (Pa. Super 2008)
(unpublished table decision), appeal denied,
989 A.2d 917 (Pa. 2009) ............................ passim

Cullen v. Pinholster,
563 U.S. 170 (2011) .................................. i, 17, 26

Green v. Fisher,
565 U.S. 34 (2011) ............................................. 17

Harrison v. Richter,
562 U.S. 86, 131 S.Ct. 770 (2011) ..................... 18

Waddington v. Sarasaud,
129 S.Ct. 823 (2009) ........................... i, 19, 29, 30

Williams v. Taylor,
529 U.S 362 (2000) ............................................ 18
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XIV, § 1 ........................................ 2

viii
TABLE OF AUTHORITIES – Continued
Page
STATUTES
18 Pa. C.S. § 306 ....................................................... 13
18 Pa. C.S § 2502 ...................................................... 13
28 U.S.C. § 1257 .......................................................... 1
28 U.S.C. § 2254 ................................................ passim
Post-Conviction Relief Act (PCRA) .................. passim

1

PETITION FOR A WRIT OF CERTIORARI
Petitioners Superintendent Houtzdale SCI and the
Commonwealth of Pennsylvania respectfully petitions
this Court for a Writ of Certiorari to review the judgment of the United States Court of Appeals for the
Third Circuit.

OPINIONS BELOW
The Order and Opinion of the Third Circuit Court
of Appeals, dated September 24, 2020, written by Judge
Restrepo, is reported at Tyson v. Superintendent, SCI
Houtzdale, ___ F.3d ___ (3d Cir. 2020) and included
below at App.1a. The Third Circuit reversed the opinion
of the District Court for the Middle District, dated
February 6, 2019 and included below at App.31a,
which denied Habeas Corpus Relief. The Third Circuit
remanded with instructions to grant a Conditional
Writ of Habeas Corpus regarding Tyson’s conviction for
accomplice to First Degree Murder so that the matter
may be remanded to state court for further proceedings.

JURISDICTION
The United States Court of Appeals for the Third
Circuit’s Order reversing the District Court was issued
on September 24, 2020. This Court has jurisdiction
under 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. amend. XIV, § 1
The due process clause of the Fourteenth Amendment to the United States Constitution states
. . . No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty or property
without due process of law; nor deny to any
person within its jurisdiction the equal protection
of the laws.

INTRODUCTION
Aaron Edmonds Tyson was tried before a jury for
his role in the murders of the brothers Keith and
Daniel Fotiathis. The prosecution’s case was based
upon the testimony of Tyson’s accomplice Kasine
George, who testified that he, along with Otis Powell
and Tyson, each played a role in the double murder.
Tyson identified the victims to Powell and George,
instructed them to follow their vehicle, provided the
murder weapon to Powell and operated the getaway
car. George’s role was disabling the victim’s vehicle,
by puncturing a tire. Powell actually killed the victims.
The actions of Tyson, George and Powell were in
concert with each other, designed to effectuate the
shooting, and clearly laid out to the jury.

3
The defense at trial employed the strategy of challenging George’s credibility, maintaining that his
testimony was suspect and should not be believed
regarding Tyson’s involvement. In attacking George’s
credibility the defense fought for and obtained a jury
instruction known as the “Corrupt and Polluted Source”
instruction, which cautions a jury to treat accomplice
testimony with great caution and disfavor “as though
coming from a corrupt and polluted source.”
On May 9, 2006, following due deliberation and
after being fully instructed on the status of the law with
the respect to accomplice liability, the jury convicted
Tyson of two counts of Murder in the First Degree as
an accomplice and acquitted him of two counts of
Murder in the Third Degree as an accomplice. Now,
over fourteen years later the Third Circuit has reversed
that conviction by second guessing the strategies of
defense counsel and cherry picking the trial court’s
instructions to the jury. The ruling is in violation of
the AEDPA and case law. This case provides an ideal
vehicle to reconcile the conflict between the standard
courts must utilize to determine actions under AEDPA
and the deference-ignoring standard employed by the
Third Circuit.

4

STATEMENT OF THE CASE
A.

The Murders

In its unpublished Memorandum Opinion in
Commonwealth v. Tyson, the Pennsylvania Superior
Court summarized the factual background underlying
Tyson’s two convictions for First Degree Murder as
follows:
On April 24th, 2002 [Tyson], [Powell] and
Kasine George, drove to a Stroudsburg, Pennsylvania crack house that they controlled.
[Tyson] left the car in order to resupply the
house with drugs. When [Tyson] returned to
the vehicle, [Tyson] stated that two white
boys had just pulled a gun on him. George
described [Tyson] as angry at that time.
[Tyson], who was at that point a passenger
in the car, took a 9mm handgun from the
center console. [Tyson] racked the slide of
the gun, thus arming it. [Tyson] told Powell,
who was driving, to pull from the location
where the vehicle was parked.
[Tyson] pointed to a van and indicated that
it was being driven by the two who had
pulled a gun on him. With Powell driving,
the three followed the van to a club. When
the two white men entered that club, Powell
gave George a knife and directed him to
puncture the tires of the van. George did so
to at least one of the tires. When George
returned to the car, [Tyson] was in the

5
driver’s seat. Powell was now a passenger and
he asked [Tyson] for the gun. After five or ten
minutes the two white men exited the bar,
entered the van and left the location.
With [Tyson] now driving, the three again
followed the van. It eventually stopped due
to the flat tire. At that point, [Tyson] and
his two companions were going to exit the
car, but Powell told the other two to wait.
Powell then walked to the van. As he did so,
[Tyson] backed the car to a point where he
and George could see what was transpiring
around the van. At that point, Powell shot
the two occupants of the van, Daniel and
Keith Fotiathis. . . . [Powell] then ran back
to the car. Powell, George, and [Tyson] left
the scene. [Tyson] drove the vehicle. The three
discussed whether they should go to New
York, but eventually decided to return to their
nearby home. [Daniel Fotiathis] was shot in
the neck, the lower right chest, and the lower
right back. Gunshots struck [Keith Fotiathis]
in the lower right back, the right elbow and
the right wrist. Trial testimony established
multiple gunshot wounds as the causes of
death for the victims. The manner of each
death was homicide. Police found eight shell
casings from a 9mm at the scene.
George was later arrested on drug charges.
Thereafter, [George] provided information to
the authorities regarding the case. [Tyson]
was eventually arrested and charged with
the homicide of both victims.

6

Commonwealth v. Tyson, 947 A.2d 834 (Pa. Super
2008) (unpublished table decision), appeal denied, 989
A.2d 917 (Pa. Super 2009).
B.

The Trial

At trial the Commonwealth’s theory was simple,
direct and unwavering. Tyson was part of a plan to
kill the Fotiathis brothers after they threatened him
with a gun while he was in the parking lot of the gas
station adjacent to the drug house that he and Kasine
George were dealing from. The Commonwealth articulated clearly throughout the trial that Tyson’s role in
the killing was as that of a helper, a facilitator, in other
words, an accomplice.
It was Tyson who had the dispute with the victims,
who pointed them out to his two compatriots George
and Powell and who directed that they be followed.
Tyson introduced the murder weapon, his 9mm handgun, which he retrieved from the center console of the
vehicle and armed it by racking the slide. After the
brothers stopped at the club known as the ‘Outer
Limits,’ George was sent to deflate one or more of
the tires of the vehicle. When George returned to
Tyson’s vehicle, Tyson was now driving and Powell
was in the front passenger seat. The trio began to
follow the victims who had reentered their minivan.
Once the van pulled over so the victims could repair the
flat, it was Tyson who maneuvered his vehicle back
and secreted it at a distance from the target. Powell
then exited the car with the handgun that Tyson had
given him and promptly shot the two victims. He then
ran back to the car and Tyson sped away, leaving the
area and eventually the state. The case was built
entirely on the testimony of the accomplice Kasine

7
George. If George was deemed not credible by the jury
then the Commonwealth’s case would disintegrate.
George was the glue that connected Tyson to the crime.
The task for the defense was therefore plain: to
discredit George so that the jury would not believe him.
But the defense knew that it could not attack George
through the entire breadth of his testimony. Rather,
the defense would have to make certain concessions.
For instance, the Commonwealth had established that
George and Tyson knew each other since both were
children growing up in New York. The two had for
years been involved in the distribution of illegal
narcotics in New York, Allentown, Pennsylvania, and
the Poconos. George himself had been sentenced by
federal authorities for drug trafficking to a term of
imprisonment of approximately 12½ years. Tyson,
too, had been charged with drug trafficking and had
entered a guilty plea to one count of conspiracy to
distribute more than 50 grams of crack cocaine and
received a sentence of approximately 16 years and 8
months. So, the defense knew it would be fruitless to
contest the role of Tyson as a drug dealer working
with George.
Similarly, the Commonwealth introduced evidence
that Tyson owned the black Nissan Maxima with dark
tinted windows that was used to follow the victims
and flee the crime scene. Tyson had been stopped in
that vehicle two days before the murders by a local
police officer. Additionally, the car was titled to
Tyson. So the defense could not deny that the black
Nissan Maxima with dark tinted windows observed
by some bystanders was in fact Tyson’s vehicle.
Instead, the defense tried to establish through cross
examination that the vehicle was not exclusive to

8
Tyson but that other members of the drug ring,
including Kasine George, regularly used that vehicle.
It is within the context of these and other facts
that the actions of Tyson, Powell and George were
analyzed by the jury and formed the basis for the
instructions given by the trial judge. The dangerous
world of drug dealers, turf wars, threats from robbers,
and of course heat from the police was vividly described
by George and other members of Tyson’s drug ring.
At the close of evidence, the defense moved for a
judgment of acquittal arguing that there was no
evidence of an agreement, no discussion to kill, that
at best it was merely a plan to confront the victims.
The trial court denied the motion, noting that it was
Tyson who gave the gun to Powell, adding, in the folksy
manner of the late learned trial judge, the Honorable
Ronald Vican, that the circumstances, including the
high degree of action in concert between the defendant
and his friends, showed they were not out deer
hunting; there was more than circumstantial evidence
that would allow the case to go to the jury. App.160a.
Following up with the strategy of discrediting
George by all means possible, the defense attorney
during closing argument told the jury not to accept
the word of Kasine George; that the mere hesitation
to accept the word of Kasine George was confirmation
of reasonable doubt. Id. at 167a. The defense attorney
likened any reliance on the word of Kasine George as
tantamount to hiring him as the would-be babysitter
of one’s own children, again equating any hesitation
with such a decision as proof of reasonable doubt. Id.
at 166a. The defense maintained that it was equally
plausible that George committed the crime not with
Tyson, but other members of the ring: only fingering

9
Tyson out of animosity. To make its point the defense
reminded the jury that there was nothing that put
Tyson at the scene except the word of a ‘corrupt and
polluted source,’ i.e., George.
The acts leading to the murder of the victims
were never contested by the defense. It was obvious
that the victim’s vehicle had been disabled when its
tires were slashed. It was obvious the victims were
killed by multiple gunshots from a 9mm handgun. It
was obvious and that a black Nissan Maxima with
dark tinted windows was involved. The fact that George
had admitted to slashing the tires and was part of the
group that killed the victims was also not challenged
by the defense. It was only George’s fingering of Tyson
that was attacked by the defense. In other words, the
acts that would be sufficient to make one an accomplice
to murder were never in dispute, only the identity of
Tyson as one of those involved was challenged.
C.

The Jury Instructions

The trial court began jury instructions by going
over the criminal information with the jury. The
criminal information specified precisely what Tyson’s
role was as an accomplice. App.224a. Reading from
the criminal information, the charging document, the
court instructed the jury that Tyson was alleged to
be an accomplice in the murder of Daniel and Keith
Fotiathis; that the Commonwealth alleged that Tyson
agreed with Otis Powell and Kasine George to kill
Daniel and Keith Fotiathis, that he allegedly supplied
the firearm to Otis Powell who did the actual shooting,
and that Tyson allegedly operated the vehicle which
drove from the scene. Id. The court made it clear that

10
Tyson was being charged as an accomplice not as a
shooter. Id.
The trial court explained to the jury that there
were four possible verdicts to consider: guilty or not
guilty with respect to First Degree Murder, one for
Daniel and one for Keith Fotiathis, and guilty or not
guilty with respect to Third Degree Murder, one for
Daniel Fotiathis and one for Keith Fotiathis. All four
possible verdicts alleged that Tyson was an accomplice
in the taking of the lives of Keith and Daniel Fotiathis.
App.225a. Explaining the concept of accomplice lability
in more detail the trial court stated: “Mr. Tyson is not
charged with being the one who did the killing. He is
charged with being an accomplice . . . in other words
Kasine George testified here and tells you that that he
and the defendant and Otis Powell acted in concert
in this matter which has been laid out to the police
about the killings of Keith and Daniel Fotiathis.” Id. at
App.227a. The trial court explained the required mental state of an accomplice for murder, taking much of
the instruction from Pennsylvania Standard Instruction
8.306(a) ‘Liability for Conduct of Another.’ For instance,
the trial court instructed the jury:
[Y]ou may find the defendant guilty of the
crime without finding that he personally performed the acts required for the commission
of that crime. The defendant is guilty of a
crime if he is an accomplice of another person
who commits the crime. He is an accomplice
if with the intent to promote or facilitate
the commission of a crime he encourages,
requests or commands the other person to
commit it or agrees to aid or attempts to aid
the other person in planning, organizing and

11
committing it. You may find the defendant
guilty of a crime on the theory that he was
an accomplice as long as you are satisfied
beyond a reasonable doubt that the crime
was committed and that the defendant was
an accomplice of the person who actually
committed the crime.

Id. at 229a.
The trial court also read the requested defense
instruction, the special cautionary instruction known
as the “Corrupt and Polluted Source.”
In deciding whether or not you are going to
believe Kasine George, you should be guided
by these principles which you should use to
view his testimony. The testimony of Kasine
as an accomplice, because of what he admitted to having done, should be looked upon
with disfavor because it comes from a corrupt
and polluted source. Examine Kasine George’s
testimony closely, accept it only with caution
and care. You should consider whether with
Kasine George’s testimony that the defendant
committed this crime in such a manner as I
have described to you and the information by
the Commonwealth whether that is supported
by, in whole or in part or contradicted by
other evidence in whole or in part anything
you heard during the course of the trial.
Because if this is supported by independent
evidence than this becomes more dependable.
You have the right to, if you choose, find the
defendant guilty as an accomplice based on
Kasine George’s testimony alone even though
you choose to find maybe it is not supported

12
by any independent evidence. Even though
you decide that Aaron Tyson is an accomplice
and Kasine George has given you testimony
to that effect, that testimony standing alone
is sufficient evidence on which to find the
defendant guilty, if, after the foregoing principles, you are convinced beyond a reasonable
doubt that Kasine George testified truthfully
and the defendant committed the crime as
an accomplice.

Id. at 227-228a.
Only the charges of First Degree and Third Degree
Murder, under a theory of accomplice liability were
considered by the jury. The trial court carefully
instructed the jury on the elements for those offenses,
including mens rea. With respect to First Degree
Murder, the jury was instructed that specific intent to
kill was the requisite mental state, while Third
Degree Murder could be shown with various mental
states which can make up ‘malice,’ the necessary
baseline turning a killing into a murder. These various
mental states were also defined for the jury. Of course,
with each mental state to consider, the jury was
repeatedly reminded that the defendant was charged
as an accomplice and that he had to have actually
agreed with the principal in the commission of the
crime and to aid or attempt to aid him.
The jury carefully considered the evidence and
eventually entered a verdict. With respect to the two
counts of Murder in the First Degree as an accomplice,
the jury found Tyson guilty. However, with the two
counts of Murder in the Third Degree as an accomplice,
those which required only the general mental state of
malice and not the specific intent to kill, the jury found

13
Tyson not guilty. Therefore, the jury had to conclude
that by agreeing to aid Powell in the killing of the
victims, Tyson himself had the specific intent to kill.
D.

Appeals in the State Courts

On direct appeal the Pennsylvania Superior Court
affirmed Tyson’s conviction in an unpublished Memorandum Opinion filed on January 11, 2008. One of the
issues in direct appeal was whether the evidence was
sufficient to convict Tyson of two counts of Murder in
the First Degree as an accomplice. In affirming Tyson’s
conviction the Superior Court identified the elements
of First Degree Murder found at 18 Pa. C.S § 2502 and
defined accomplice liability under 18 Pa. C.S. § 306.
In particular, the Superior Court noted that a person
is legally accountable for the conduct of another when
“ . . . with the intent of promoting or facilitating the
commission of the offense he: (i) solicits such other
person to commit it; or (ii) aids or agrees or attempts
to aid such other person in planning or committing it.”
Citing Com. v. Schoff, 911 A.2d 147, 161 (Pa. Super.
2006), the Superior Court noted that “two prongs
must be satisfied for defendant to be found guilty as
an accomplice. First, there must be evidence that the
defendant intended to aid or promote the underlying
offense. Second, there must be evidence that the defendant actively participated in the crime by soliciting,
aiding, or agreeing to aid the principal. While these
two requirements may be established by circumstantial
evidence, a defendant cannot be an accomplice simply
based on evidence that he knew about the crime or is
present at the crime scene. There must be some additional evidence that the defendant intended to aid in
the commission of the underlying crime and then did
or attempted to do so. With regard to the amount of aid,

14
it need not be substantial so long as it was offered to
the principal to assist him in committing or attempting
to commit the crime.”
The Superior Court on direct appeal concluded
that the evidence was sufficient to satisfy the abovequoted test for accomplice liability regarding First
Degree Murder. “The evidence showed that [Tyson],
who was angry because two men had pulled a gun on
him, identified the van carrying those men. He then
directed Powell to drive and later drove the car himself,
thus pursuing the victims. [Tyson] produced a murder
weapon and supplied it to the shooter. The shooter then
intentionally fired the gun at both victims striking
them in vital areas and causing their deaths. [Tyson]
drove his companions from the scene, the three of them
discussing where they should go. We cannot say that
the foregoing evidence is so weak and inconclusive
that no probability of fact can be drawn therefrom.
To the contrary, when viewed most favorably to the
Commonwealth, this evidence and its reasonable
inferences could lead a fact finder to conclude beyond
a reasonable doubt that [Tyson] intended to promote
the murder of the victims and that he actively
participated in that murder by aiding the principal
(i.e., the shooter) when he identified the intended
victims, told the principal to drive, drove himself in
pursuit of the victims, introduced the murder weapon,
supplied it to the principal, and then helped the principal flee the scene. Thus, there was evidence that
[Tyson] intended to cause the shooting death of the
victims and that he aided in the commission of the
crime”. Com. v. Tyson, 947 A.2d 834 (Pa. Super 2008)
(unpublished table decision), appeal denied, 989 A.2d
917 (Pa. 2009).

15
Tyson, through counsel, filed a Petition for Allowance of Appeal with the Pennsylvania Supreme Court.
After the Pennsylvania Supreme Court denied the
Petition for Allowance of Appeal, Tyson filed a Pro Se
Petition for Relief under the Pennsylvania PostConviction Relief Act (PCRA). That petition was filed
on November 19, 2010. An amended PCRA petition
was also filed on Tyson’s behalf through counsel. One of
the issues raised in the amended PCRA petition was
the alleged failure of trial counsel to request an
instruction regarding accomplice liability and the
specific intent to kill.
On February 1, 2012, the trial court entered an
Order and 62-page Opinion denying the PCRA petition.
When that decision was appealed to the Superior Court,
the trial court also filed an opinion in support of its
order consisting of an additional 18 pages.
The Pennsylvania Superior Court affirmed the
decision of the PCRA court and denied Tyson’s PCRA
petition. In affirming the denial of the PCRA petition,
it is clear that the Pennsylvania Superior Court viewed
the jury instructions as a whole and, importantly,
analyzed the issue in conjunction with the evidence at
trial and the particular positions of both the defense
and the prosecution. For instance, in affirming the
admission into evidence of the proof of Tyson’s drug
dealing, the Superior Court discussed how the relevance
of that evidence went toward the motive for the shooting itself. Since the circumstances showed that Tyson
was threatened by an apparent gun in the possession
of one of the victims during the very time period that

16
he was resupplying his drug house.1 Agreeing with
the trial court that this evidence of motive helped explain the sequence of events and informed the jury of
the natural development of the case, the court further
stated:
[W]e agree with the above analysis and further add that evidence of [Tyson’s] drug dealing was also highly relevant to explain the
motive behind the shootings. Indeed at trial,
the evidence demonstrated that the impetus
for the shootings was when Keith Fotiathis
pulled a gun on [Tyson] within [Tyson’s] own
drug distribution turf . . . as Mr. George testified, this action was particularly egregious
to a drug dealer such as [Tyson] because, ‘in
the drug trade, it is necessary to convey an
appearance to others that you are a tough guy
not to be screwed with . . . it keeps the wolves
at bay, and they are less likely to try you.
. . . given that it was necessary for [Tyson], as
a drug dealer, to appear strong—and given
that Mr. Fotiathis made Appellant appear
weak within his own drug distribution turf—it
became readily apparent that [Tyson’s] drug
dealing was highly relevant in this case to
explain the motive behind the murders. Certainly, the evidence of [Tyson’s] drug dealing
was essential to explain why [Tyson] might
have viewed the murder of the Fotiathis
brothers to be an occupational necessity.

1 No gun was ever recovered from the victims or their minivan.
Instead, the police recovered a BB gun on the floor of the van.

17

Commonwealth v. Tyson, 947 A.2d 834 (Pa. Super
2008) unpublished, appeal denied, 989 A.2d 917 (Pa.
2010).
The denial of Tyson’s PCRA petition was affirmed
on appeal by the Pennsylvania Superior Court at
Commonwealth v. Tyson, 2013 WL11283845 (Pa. Super
2013). Reliance by the Superior Court in affirming the
denial of the PCRA petition was made on well-settled
state authority, which requires that jury instructions
be viewed as a whole. See Com. v. Maisonet, 31 A.3d
689, 694 n. 2 (Pa. 2011); Com. v. Daniels, 963 A.2d 409,
429 (Pa. 2009).
E.

Federal Habeas Review

On October 22, 2013, Tyson filed a Pro Se Petition
for Relief under 28 U.S.C. § 2254. Tyson also obtained
an Order holding the petition in abeyance pending
exhaustion of claims presented in a second PCRA
petition relevant here. On October 27, 2017, Tyson
reactivated the previously stayed habeas proceeding
and filed a brief in support of the petition.
On February 6, 2019, the District Court for the
Middle District of Pennsylvania issued a Memorandum
and Order denying the petition. App.31a. The district
court correctly framed the analysis under the AEDPA,
including the higher threshold required for a petitioner
to prevail:
[B]ecause the purpose of the AEDPA is to
ensure that federal habeas relief functions as
a guard against extreme malfunctions in the
state’s criminal justice systems and not as a
means of error correction, Green v. Fisher,
565 U.S. 34, 38, (2011) (internal quotations

18
and citations omitted), this is a difficult to
meet and highly deferential standard . . .
which demands that state-court decisions be
given the benefit of the doubt. Cullen v.
Pinholster, 563 U.S. 170, 181 (2011) (internal
quotations and citations omitted). The burden
is on Tyson to prove entitlement to the writ.
App.51a. The decision is contrary to federal law if “the
state court applies a rule that contradicts the governing
law set forth in Supreme Court cases or if the state
court confronts a set of facts that are materially indistinguishable from a decision of the Supreme Court
and nevertheless arrives at a result different from
Supreme Court precedent.” Williams v. Taylor, 529 U.S
362, 405-06 (2000). A state-court decision reflects an
unreasonable application of such law only where there
is no possibility a fair-minded jurist could disagree
that the state court’s decision conflicts with the
Supreme Court’s precedence, a standard the Supreme
Court has advised is difficult to meet because it was
meant to be. Harrison v. Richter, 562 U.S. 86, 131 S.Ct.
770 (2011). As the Supreme Court has cautioned, “an
unreasonable application of federal law is different
from an incorrect application of federal law.” Id. at 101;
App.51a.
The district court began an in-depth analysis of the
reasoning behind the state court’s decisions affirming
the conviction and denying the relief with regard to
the appropriateness of the jury’s charge.
After citing at length from the thorough opinions
of the PCRA court Opinion and the Superior Court
Opinion, the district court reviewed federal law with
respect to a due process challenge to a jury instruction,
one that was alleged to have relieved the Common-

19
wealth of proving every element of the crime charged
beyond a reasonable doubt.
Even if there’s some ambiguity, inconsistency
or deficiency in the instructions such an error
does not necessarily constitute a due process
violation. (Citation omitted.) Rather, the
defendant must show both that the instruction was ambiguous and that there was a
reasonable likelihood that the jury applied
the instruction in a way that relieved the
state of its burden of proving every element
of the crime beyond a reasonable doubt . . . in
making this determination the jury instruction may not be judged in artificial isolation
but must be considered in the context of the
instructions as a whole and the trial record.
App.57-58a (quoting Waddington v. Sarausad, 555 U.S.
179, at 190-191 (2009)) (further noting that Waddington
rejected a habeas petitioner’s claim that an accomplice
liability instruction violated due process.)
F.

The Court of Appeals Opinion

On September 23, 2020, the United States Court
of Appeals for the Third Circuit issued an Opinion
through the Honorable Judge Restrepo reversing the
District Court’s Order denying habeas corpus relief
and remanding with instructions to grant a conditional
Writ of Habeas Corpus regarding Tyson’s conviction for
accomplice to First Degree Murder. Tyson v. Superintendent Houtzdale SCI, 976 F.3d 382 (3d Cir. 2020);
App.1a. A careful review of the Court of Appeals Opinion demonstrates that it failed to view the jury
instruction as a whole and actually ignores the factual
context of the trial record. The Court of Appeals inquiry

20
begins with a mischaracterization of the Commonwealth’s theory of the case claiming that the Commonwealth’s theory was that Tyson was guilty because he
assisted the principal. Tyson, 976 F.3d at 387; App.4a.
However, a review of the record as demonstrated above
shows that the Commonwealth consistently brought
to the fore the fact that the defendant, along with his
accomplices, Kasine George and Otis Powell, all acted
in concert in bringing about the deaths of the Fotiathis
brothers. The concerted action consisted of Tyson’s identifying the victims as the man who pulled the gun on
him, pointing out their van to Powell and instructing
him to follow it, waiting while the victims came back
to their vehicle from a bar near a Kentucky Fried
Chicken and continuing to follow the vehicle to a second
nightclub. Then, while the victims were in that nightclub, George crept up to their van, looked inside it for
the sign of a weapon and punctured at least one of the
vehicle’s tires so that it would become disabled. Thereafter, when the victims returned to their vehicle and
drove away, Tyson followed them. When the victims
pulled over Tyson passed them by, making a turn and
parking at a discreet distance from them on an adjacent
street. By that time, Tyson had given the murder
weapon to Powell. Once Tyson parked, Powell got out of
the vehicle, approached the victims, shot them at close
range, and ran back to the waiting getaway vehicle
with Tyson behind the wheel. So the Commonwealth’s
theory that this high degree of coordination was, in and
of itself, proof that Tyson, too, possessed the specific
intent to kill. The Court of Appeals Opinion ignores
the facts at trial and the strategies of counsel.
Additionally, there is a degree of cherry picking
with respect to the jury instructions themselves. For

21
example, the Court of Appeals stated, “the absence of
an objection to the court’s explanation of the mens rea
element of First Degree Murder however is indefensible.
The court inadvertently identified the actual shooter as
an accomplice, and then informed the jury that the
facts of record established the killings were intentional.”
Tyson, 976 F.3d at 393; App.18a. The trial court did no
such thing. Rather, and in keeping with the defense
position at trial, the Commonwealth’s position, and the
facts at trial, the late trial judge merely summarized
the testimony of Kasine George, the only eyewitness
to the murder who testified. The trial court carefully
explained to the jury that there were specific instructions regarding George’s credibility, and that if he
were to be believed the action would show that the
men acted in concert to bring about the killings.
Also on page 18 of the Opinion, the Court of
Appeals states: “ . . . we could find no language in the
instruction that would lead the jury to connect the
requisite intent to kill to the role of an accomplice.”
Tyson, 976 F.3d at 392; App.17a. But that, too, is
simply not the case. For instance, as previously discussed, the trial court instructed as follows: “now, Mr.
Tyson is not charged with being the one who did the
killing. He is charged with being an accomplice. And
that, in other words, Kasine George testified here and
tells you that he and the defendant and Otis Powell
acted in concert in this matter which has been laid
out to the police about the killing of Keith and Daniel
Fotiathis.” App.227a. After instructing the jury that
George’s testimony should be treated with great
caution and “looked upon with disfavor because it
comes from and corrupt and polluted source,” properly
identifying George as an accomplice with Tyson, the

22
court instructed the jury that “the defendant is guilty
of a crime if he is an accomplice of another person
who commits the crime. He is an accomplice if with
the intent to promote or facilitate the commission of
a crime he encourages, requests or commands the
other person to commit it or agrees or aids or agrees
to aid or attempts to aid the other person in planning,
organizing, committing it.” Id. at 228-29a. There was
clear evidence, if believed, that the defendant agreed
with the others in the planning, organizing, and
commission of the shooting deaths, i.e., the murders
of the victims. The instructions connect the requisite
intent to kill to the role of an accomplice because the
jury would have had to have found beyond a reasonable
doubt that Tyson agreed with Powell, the slayer, to
help him kill the victims. That concept itself requires
proof that Tyson himself manifested the same specific
intent to kill. Certainly, the District Court Opinion, the
Superior Court Opinion, and the PCRA Court Opinion
have all so found, were not unreasonable in their findings, and should have been afforded deference by the
Court of Appeals.
Compounding its error, the Third Circuit went
on to find that the defense counsel actions constituted
error so serious as to deprive the defendant of a fair
trial. Correctly noting that the standard to establish
prejudice requires a more comprehensive analysis to
determine whether it would be unreasonable to find
the instruction did not render Tyson’s conviction unfair,
citing Harrington, the Court of Appeals indicated it
needed to look to the instruction and whether it interfered with the jury’s assessment of the evidence to
the extent that but for the incorrect statements of
law there is a substantial likelihood that a different

23
verdict would have been reached. Tyson, 976 F.3d at
397; App.26-27a. However, despite correctly stating
the standard, it is clear that the Third Circuit did not
conduct a thorough review of the record to determine
whether the instruction interfered with the jury’s
assessment. In reaching a decision to the contrary the
Third Circuit made several inaccurate conclusions from
the record. For instance, with regard to the counts of
Murder of the Third Degree, the Third Circuit incorrectly stated that the instruction was given after the
court suggested to defense counsel that such an
instruction would be appropriate. Tyson, 976 F.3d at
387; App.6a. However, a review of the record reveals the
following interaction between defense counsel, the
court, and the defendant prior to the instruction:
MR. GAGLIONE: Your Honor, there was some discussion at the close of the evidence yesterday regarding whether or not we would agree to allow the
court to charge the jury on accomplice liability
with respect to Murder Of The Third Degree.
After discussion with my client we would ask the
court not to include an instruction on Murder in
the Third Degree. Not only does it logically not
flow from the evidence, I think legally speaking
accomplice liability cannot flow toward Murder
in the Third Degree. It has to be a specific intent
crime. I have explained to my client that without
that charge this is essentially an all or nothing
proposition. And he understands that if the jury
were to come back with a conviction that the court
would have no option in this matter but to impose
a sentence of life imprisonment . . .
THE COURT: Mr. Tyson, I want to say this to you. I
agree with your analysis that certainly—in fact, I

24
explained to the lawyers yesterday I don’t think
Third Degree Murder is a part of this case; however, I have been trying—a defense lawyer will
always ask for the lesser charge, include the
lesser charge because the prospect of the chance
of a jury coming and finding a conviction of the
First Degree they need something imposed to be
lesser. And a lawyer would be remiss if he did
not ask the court to have a Third Degree charge
in a case like this. I don’t think it fits. Frankly, I
agree with you. But from a defense standpoint it
is a wise thing to do . . .
MR. GAGLIONE: I explained yesterday, Judge, that I
thought it should be in there and I still think it
should be in there. Mr. Tyson do you think it
should be?
THE DEFENDANT: If this is what you want to do.
THE COURT: I mean you say it is tactical but I said
you would be remiss if you did not ask for it; he
would have been criticized if he didn’t ask for
that. And if he were convicted of Third Degree or
First Degree he would have been remiss. . . .
MR. GAGLIONE: Judge, we prefer to have it as per my
conversation yesterday. And Mr. Tyson, are you
okay with that.
THE DEFENDANT: Yes
MR. GAGLIONE: We prefer to have it in.
THE COURT: I know that the defense lawyer wanted
it, but I don’t want him to feel he has to after he
agreed. It is his choice. I will take it out if he
wants that.

25
MR. GAGLIONE: We prefer to have it in.
THE COURT: He does not want it. It is his choice.
We will take it out.
MR. GAGLIONE: We would like to have it in.
THE COURT: Are you sure.
THE DEFENDANT: Yes.
THE COURT: Alright.
. . . it does not fit in the evidence once you do it
you cannot change your mind. If it goes in it is
in. Do you understand that?
The Defendant: Yes.
THE COURT: That is what is going to be in.
MR. GAGLIONE: Yes.
THE COURT: Bring in the jury.
App.217-219a.
The inclusion of two counts of accomplice liability
Murder in the Third Degree allows for the proper
context of the jury’s verdict. It is important to remember
that the jury acquitted Tyson of the two counts of
Murder in the Third Degree. However the jury convicted him of two counts of Murder in the First Degree.
Both murder charges were given as based upon
accomplice liability. The only difference between the
elements of Third and First Degree was that First
Degree required the specific intent to kill, while Third
Degree Murder does not. By acquitting the defendant
of Third Degree and convicting him of First Degree
Murder, the jury clearly found that Tyson had the
requisite specific intent to kill.

26
The Third Circuit also goes out on a limb when
it concludes that Tyson could have had merely an
intent to cause a confrontation with the victims. Such
a conclusion flies in the face of the facts. A confrontation with the victims had already occurred. Based
upon that confrontation, Tyson produced the murder
weapon, arming it, and giving it to his accomplice,
and thereafter engaging in all the other actions in
concert, designed to disable the victims’ vehicle and
facilitate the shooting. Further, there is no crime
charged of an intent to cause a confrontation. The
jury instruction required that the jury find that an
accomplice agrees to aid the principal in the planning
or the commission of the offense charged. The only
offenses charged were for the murder of the victims.

27

REASONS FOR GRANTING THE PETITION
This court should grant the Writ of Certiorari and
reverse the decision of the Third Circuit for several
reasons. First, the Third Circuit disregarded the state
court’s determination of state law. Namely, that the
instructions given in trial properly instructed the jury
as to accomplice liability under Pennsylvania law. The
state court’s determination that the jury instructions
sufficiently instructed the jury as to the requirements
of accomplice liability First Degree Murder should
have been awarded proper deference by the Court of
Appeals. However, through an erroneous view of the
trial record and the failure to view the jury instructions
as a whole, the Third Circuit found defects that do not
exist.
The required doubly deferential standard of review
required under AEDPA § 2254 and Cullen v. Pinholster, 563 U.S. 170 (2011) and other well established
precedent have been violated as a result of the Third
Circuit Court of Appeals determination. A substantial
conflict therefore exists between the state court
decisions and the Court of Appeals. The Third Circuit
compounded its error by finding a substantial likelihood of a different result premised upon its faulty
reasoning with respect to the jury instructions in the
first instance. Once again, it ignored the proper level
of deference owed to the state court and defense
counsel under the AEDPA.
The Court of Appeals decision is in direct opposition to numerous precedent of the Pennsylvania
Supreme Court. For instance, in Daniels, the Pennsyl-

28
vania Supreme Court upheld an accomplice liability
instruction for First Degree Murder by reviewing
similar instructions to those at bar. In Daniels, the
contested jury instruction read as follows:
[U]nder the law of Pennsylvania you may find
a defendant guilty of a crime without finding that he personally engaged in the conduct
required for commission of that crime or
even that he was personally present when
the crime was committed. A person is guilty
of a crime if he is an accomplice of another
person who commits that crime . . . he is an
accomplice if, with the intent of promoting
or facilitating commission of the crime, he
solicits, commands, encourages requests the
other person to commit it, or aids, agrees to
aid, or attempts to aid the other person in
planning or committing it . . . if an intent to
kill exists, or if a killing was consciously done
with knowledge of such consequences, or if
the killer consciously decided to kill the
victim, the killing was willful. If this intent
to kill is accompanied by such circumstances
as evidence or demonstrate a mind fully
conscious of its own purpose and design to
kill, it is deliberate . . .
963 A.2d at 430. In Daniels, the court concluded that
the charge when read as a whole sufficiently instructed
the jury regarding the requirement that an individual
must possess the specific intent to kill in order to be
convicted of First Degree Murder.
Similarly, in Com. v. Thompson, 543 Pa. 634, 674
A.2d 217 (1996) the Pennsylvania Supreme Court
approved of the following instruction:

29
You may find a defendant is guilty of a crime
without finding that he personally performed
the act or engaged in the conduct that is
required to commit to the crime. The defendant is guilty of a crime if he’s an accomplice
of another person who commits the crime.
He’s an accomplice if with the intent to
promote or facilitate the commission of a
crime he either solicits, encourages, commands or requests the other person to commit
it or he aids or agrees to aid or attempts to
aid the other person in planning or committing it. You may find the defendant guilty of
the crime on the theory that he was an
accomplice as long as you’re satisfied beyond
a reasonable doubt that the crime was
committed and that the defendant was an
accomplice of the person who committed it.

Id. at 218. Since the accomplice liability instruction was
preceded by the definition of the different degrees of
murder, including the definition of the specific intent
to kill, the court in Thompson upheld the charge. The
challenged jury instruction here, when viewed as a
whole, is entirely consistent and in accordance with
Thompson and Daniels.
Not only is the Third Circuit’s decision in stark
contrast to well-established precedent of the Pennsylvania Supreme Court, it is also at odds with this honorable court’s own precedent in Waddington v. Sarausad,
129 S.Ct. 823 (2009). At issue in Waddington was the
Ninth Circuit’s reversal of a Washington State murder
conviction upheld by that state’s Court of Appeals. The
accomplice language in Washington State is substantially similar to that of the Commonwealth of Pennsyl-

30
vania. The Supreme Court, in an Opinion written by
Justice Thomas, concluded that the Ninth Circuit erred
in finding that the jury instruction violated the defendant’s due process rights. Indeed, utilizing language
very similar to the case at bar, Justice Thomas writing
for the majority noted that the inquiry should have
ended upon proper review of the entire charge because
it would have resulted in a finding that the charge
adequately instructed the jury and no further analysis
was needed. While the Third Circuit cites Waddington
in its opinion here, it does so obliquely for the conclusory proposition that a deficient instruction creates a
reasonable likelihood the jury misapplied the law and
relieves the government of its burden of proving each
element of the crime charged beyond a reasonable
doubt the resulting criminal conviction violates the
defendant’s constitutional right to due process. The
Third Circuit should have applied Waddington for its
main proposition, i.e., that where an accomplice liability criminal homicide jury instruction parrots the
language of that state’s accomplice liability law and
couples it with the elements needed for murder, no
defect exists.
The requested Petition for Writ of Certiorari is
necessary to resolve the conflict existing as a result
of the Third Circuit’s upending established state
precedent and failing to apply the precedent of this
Honorable Court as well.

31

CONCLUSION
For the reasons stated herein, the Petition should
be granted and the decision below should be reversed.
Respectfully submitted,
MICHAEL MANCUSO

FIRST ASSISTANT DISTRICT ATTORNEY
COUNSEL OF RECORD

ANDREW KROECKEL

ASSISTANT DISTRICT ATTORNEY

701 MAIN STREET, SUITE 200
STROUDSBURG, PA 18360
(570) 517-3962
MMANCUSO@MONROECOUNTYPA.GOV

COUNSEL FOR PETITIONER
DECEMBER 17, 2020

